UNCLASSIFIED/fFOR OFFIOb9tL UOE ONLY




UNCLASSIFIED/JFOR OFFIGIAL UOE OPJL¥
               UNCLASS.IFIED//FOR OFFICIAL USE OPJLY
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-288 4



                                                                      December 3, 2010



MEMORANDUM FOR COMMANDER, UNITED STATES PACIFIC COMMAND
               DIRECTOR, NAT.fONAL SECURJTY AGENCY/CHIEF
                 CENTRAL SECURITY SERVICE
               COMMANDER, UNITED STATES ARMY CORP OF
                           ENGINEERS



SUBJECT: (U//fOUO) Report of the National Security Agency Texas Cryptologic
         Center Construction Project (Report No. I I -fNTEL-02).

(U//fi'8H8) Background: This review was conducted as part of our audit of the National
Security Agency (NSA) Cryptologic Center construction projects. This report focuses on
the National Security Agency Texas (NSAT) construction project. We issued a report on
the NSA Georgia Cryptologic Center military construction (MILCON) project on
August 6, 2010. We do not intend to review the military construction of the NSA Hawaii
Cryptologic Center due to competing resource requirements. We found no· significant
issues with the NSA Georgia or Texas facil ities~ and the Hawaji MILCON is complete.

(U/foFOUO) The existing NSAT building is located at the Medina Training. Annex of
Lackland A ir Force Base (AFB) in Northwest San Anto nio, Texas. NSAT conducts
Signals Intelligence and Computer Network Operations worldwide, in support of
National and tactical decision-makers and customers/partners. NSAT applies geographic
and func tional expertise in exploiti ng targets operating in the Western Hemisphere and
those posing a threat to Homeland Security.

(UhTOUO' On January 31, 2005, Acting USD (AT&L) -.vrote to the Deputy Secretary of
Defense stating that the United States Anny Corps of Engineers (USACE), on behalf of
NSA, proposed relocating                                                  from Lackland
AFB to a commercial-leased facility in San Antonio, Texas. Lackland AFB was deemed
inadequate to accommodate mission growth and to consolidate all NSA personnel assets
in the area into one facility. NSA stated that there was no Government-owned or
controlled space available within a 20 mile radius to satisfy the 480,000 square-foot
requirement due to the robust infrastructure and Anti-Terrorism Force Protection needs of
NSA . On February 5, 2005, the Office of the Deputy Secretary of Defense notified the
Chairmen and Ranking Members of the Defense and Intelligence Committees that DoD
USACE planned a lease acquisition on behalf ofNSA.

(U/JF8~8~ Objective: To determine if the NSA appropriate ly leased a facility by using
Operations and Maintenance (O&M) funding instead of using MILCON funding for the,
relocation of the NSAT Cryptologic Center.


                  UNCLASSIFJED/t¥0R OFF!Ch'd: USE 0? lLY
                           UNCLASSIFIEDh'fOR OffiCJAL USE                      O~lLY


(U//F'8~8) Scope/Methodology: The DoD OIG Fort Meade team met with the USACE.
Balti more District to discuss the lease and use of O&M funding of the NSAT Cryptologic
Center. Specifically, we discussed why the USACE leased a commercial building instead
of purchasjng, or buildi ng on a mili tary instal lat ion and why O&M funding was used as
opposed to MILCON funding. These decisions were based on economic analyses,
federal law, legal opi nions, and Defense authorizations.


(U) RESULTS:

(U//F8~0? E conomic Analyses. The US ACE deemed Lackland Air Force Base
inadequate to accommodate mission growth and to consolidate all NSA petSonne1 assets
in the area. into one facility. In accordance with DoD Instruction 7041 .3, the US ACE
conducted an economic anal ysis of the lease and MILCON scenario for NSAT. The
Economic Analysis of Alternati ve Faciliti es Study, dated December 2004, reported a
NSA (b)(3) 50 USC § 402 Note




                                                                                      tely
owned parcel of land located adjacent to. but outside of the Lackland AFB propeny
boundary. This scenario would involve government acquisition of the parcel,
incorporating it into Lackland AFB, and providing Infrastructure for development. The
total for the land acquisition and construction cost of a 436,000 sq uare foot building was
estimated to be $160 million. This cost did not include access roads and jnfrastructure
outside of the development complex. The total net present value of this MILCON project
(including 20 year and initial fit-up O&M expenses, and $ 160 million initial
construction) was $316,424,536. This MTI..CON would pay for construction costs up
front; however, the report stated that time used for congressional approvals for MILCON
will extend the occupancy date and increase costs. The December 2004 analysis also
reported a net present value of $248,650,509 to lease the Sony (microelectronic facility in
San Antonio, Texas) building for 20 full service years (including fit-up ex.pense).
Therefore, MILCON processes were considered less attractive because the proposed site
would have cost more than leasing and the processing Lime had the potential to increase
estimated costs. Since no existing military installations were avrulable for construction of
the NSAT Cryptologic Center within a 20 mi le radius, MILCON funds could not be used
However, if NSA decided to initially p urchase the Sony building, MILCON funding was
appropriate .

(U/,q;Ql.JQ) During 2007, Grubb and Ell is Company prepared a Lease-Purchase Analysis
of the Sony building for USACE. Given similar assumptions, the 20-year lease cash flow
had a net present value o f $997.680,.895. 1 where the net present value to purchase the
Sony bu ilding was $954.356,4662 . This is a four percent difference which we consider to

1T he lease cost includes ren1, 1.Hilities (eleculciry. fuel coslS and water/sewer charges). maintenance. other
c,; penses Ganitorial. landscaping, generaJ and administrative) . real estate tax, tenant ( tenant improvement)
contributio n, and landlord (tenant improvement) contribution.
2
  The purchase cost includes land value, existing building value, building shell upgrades, equipment
upgrades, additional tenant improvements, utilities. maintenance, and other expenses.
                                                       2

                               UNCLASSIAED//¥0R ORAICIAL U~IS                   O~fLY
                   UNCLASSIAED/ffOR Off'FCiAL USE ONLY

be insignificant for a biJJjon do llar cost estimate over a 20-year period, This analysjs has
a higher value than the USACE study conducted in December 2004 because it includes
the NSA Data Center. NSA decided to lease because time was an essential decision
factor. According to the Lease~Purchase Analysis, Federal government construction
p rojects are high ly regulated and tend to take longer to execute than simi lar projects
executed by the private sector developers. This additional time e xposes the government
to substantial risk from rising construction costs. In addition , DoD Directive 4275.5
states that it is DoD policy to minimize Government ownership of facilities in
consonance with the need to ensure economical support of essential peacetime, su rge, and
mobilization requirements.

(U/JihOUO~   LegaJ Opinions. On September 18, 2007, a USACE Senior Attorney
Advisor wrote a legal opinion for the Chief, USACE Real Property Services Field Office
(RSFO) on whether it was appropriate to use O&M appropriations to pay for build-out of
leased space, or whether Mll....CON appropri ations shou ld be used for this purpose in the
event the cost of s uch build-out exceeds the MILCON thresh old of $750,000. The
Attorney made reference to five quest ions that should be answered to make the
determination that leases entered into are in agreement with policy-based fiscal law
principles:

    l. Are appropriations "otherwise avai lable" for this purpose? As a general principle,
       appropriations available for operations and maintenance are available to pay for
       the costs associated with the leasing of facilities (10 USC 2661).

    2. Are the improvements incident to, and essential for, the accomplishment of the
       appropriation? This answer is dosely aligned with the necessary expense ru le and
       relates to the mission planned to occupy the leased space.

    3. Will the improvements be for the principal benefit of the government? This is a
       judgment call, however since most of the build-out that is performed by USACE-
       RSFO for its c lients is specialized, secure space, this question can c learly be
       answered in the affirmative.

    4. Are the interests of the govern ment in the improvements adequately protected?
       The standard leasehold instrument in the RSFO provides for termination by the
       government only and is typically for a minimum of ten years. F urther , all leases
       entered into by the RSFO require the Lessor to mai ntain insurance coverage and
       therefore places the burden of risk of loss or damage upon the Lessor.

    5. Are the costs of th e improvements in reasonable p roportion to the cost of the
        lease? This question calls for a subjective assessment and is the most difficult to
        answer due to the lack of definitive standards. This is further compli cated by the
        fact that guidance is vague for addressing reasonableness with respect to
        "leasing." GAO policy states that improvements made to the property that can be
       "removed from the property are not considered ''permanent improvements.'' GAO
        does not state t hat they must be removed from the property at the expiration of the
        lease only thatthe government must reserve the right to remove them . Therefore.,
                                              3

                   UNCLASSIFIED//POR OFFJCii•L USE OHLY
                   UNCLASSIFIED//FOR OffiCIJrl:; USE OtfbY

       such temporary improvements would not be counted in any analysis of
       "reasonable."

(U/Jf'OUO) Both the NSA Deputy Associate General Counsel (Acquisition & Logistics),
and the Washington Headquarters Services Senior General Counsel agreed.

(U/IFOUO) Under 10 USC 2801, MILCON appropriations are defined as funds that are
to be used for construction projects on a military installation . A military installation is
under the jurisdiction of a military department. Since leased space on private property
does not fall within the statutory intent that MILCON appropriations only be used for
projects on military installations~ MILCON appropriations are not the proper source of
funds to pay for build-out of leased space. O&M is the appropriate source of funding for
the build-out and lease of real property.

(U/IFOUO) The DoD Associate Deputy General Counsel, in a related legal opinion about
alterations to two other NSA leased faci lities raised concerns with the fifth question
related to reasonableness of improved costs related to the costs of the lease. He stated
that, while decisions of the Comptroller General do not establish any definitive standards
for determining when the cost of improvements is in reasonable proportion to the cost of
the lease, in none of these reported decisions does the ratio of the cost of improvements
to the cost of the lease (whether compared to the annual lease costs or the lease costs for
the full period of the lease) approach the level in this case, with the annuaJ cost of
improvements for the first three years of the lease averaging more than 200 percent of the
cost of the basic lease. If it was determined by appropriate authority that the costs of the
improvements to the leased space were not in reasonable proportion to the basic cost of
the underlying lease, and therefore that the funding of the improvements was not in
accord with establi shed fiscal policy, it follows that the use of appropriated funds to pay
for the improvements in this case must be found to have been improper, absent specific
statutory authority . The fiscal policy relating to the use of appropriated funds to pay for
improvements to privately-owned, government-leased space is policy-based, not the
result of any statutory prohibition.

(U) Federal Law. 10 USC 2661 states that appropriations for operation and maintenance
of the active forces shall be available for the repair of facilities and the installation of
equipment in public and private plants. The Secretary of Defense and the Secretary of
each military department may provide the leasing of bui]dings and facilities. However.
the USC does not state the type of funding that should be used for the leasing of buildings
and facili ties.

(U) Under 10 USC 2801, MILCON includes construction, development , con version, or
extension of any kind carried out w ith respect to a military installation, whether to satisfy
temporary or permanent requirements, or any acquisition of land or construction of a
defense access road. A military construction project includes all military construction
work, or any contribution authorized by this chapter, necessary to produce a complete
and usable faci lity or a complete and usable improvement to an existing facility. Mi litary


                                              4

                   UNCLASSIFIED//fi'OR OFRCIAL USE O?tLY
                    UNCLASSIFIED//FOR OffiCIAL USE O?tLY

installation includes a base, camp, post, station, yard, center. or other activity under the
jurisdiction of the Secretary of a rni I itary department or the Secretary of Defense.

(U) 10 USC 2813 allows for using funds appropriated for a military construction project
authorized by law for a military installation. to acquire an existing facility (including the
real property on which the facility is located) at or near the military installation instead of
carrying out the authorized military construction project if the Secretary determines that:

    I . The acquisition of the facility satisfies the requirements of the military department
        concerned for the authorized military construction project; and

    2. It is in the best interests of the U.S . to acquire the facility jnstead of carrying out
        the authorized military construction project.

This USC does not address cases of leasing as opposed to purchasing the facility or land,
where the facility is 1ocated.


(U) CONCLUSION:

(U/IFOt:JO) Legal opinions showed that NSA appropriately funded the leased Sony
building using O&M appropriations instead ofMILCON. Also, economic analyses
demonstrated that leasing was the best method of acquiring a facility, based on
assumptions of avrulabili ty and costs versus time constraints.

(U) No written responses to this report were required, and none were received.
Therefore, we are publishing this report in fina l form.

(U) We appreciate the courtesies extended to the staff. Questions should be directed to
me at (703) 604-8800 (DSN 664-8800).




                                                   c1a
                                                            /L~
                                                      -..~dn;Pit
                                                eputy Inspector General
                                                for Intelligence




                                                5

                    UNCLASSIFIEDJ/f'OR OFFICLtrb USE ONLY
UNCLASSIFIED//FOR OFFIOIAL UOE Ot4LV




UNCLASSIFIED/IFOR OFFIOIAL UOE OtJLV
UNCLASSIFIED//FOR OFFICI;A<L USE OfJL't'




UNCLASS IF IED/)FO~   E:WFIGhA.L 'al&E O~JL¥
